CASE No.

In The Supreme Court of the United States
_______________
JOHN MANDACINA,
Petitioner,
v.
FREDERICK ENTZEL,
Respondent.
______________________________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
______________________________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________________
Brandon Sample
Brandon Sample PLC
1701 Pennsylvania Ave., N.W. #200
Washington, DC 20006-5823
Phone: (802) 444-4357
Fax: (802) 779-9590
Vermont Bar No. 5573
Email: brandon@brandonsample.com
https://brandonsample.com
Counsel for Petitioner

QUESTIONS PRESENTED FOR REVIEW
1.

Did the court of appeals correctly conclude

that petitioner’s Brady claim fell outside the scope
of the “savings clause” of 28 U.S.C. § 2255(e).
2.

Does the Due Process Clause permit resort to

28 U.S.C. § 2241 based on Brady evidence that was
withheld by the Government until after the
prisoner’s first opportunity for federal habeas
relief has concluded.

i

II. TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW ........... i
TABLE OF CONTENTS......................................... ii
TABLE OF AUTHORITIES ................................... ii
PETITION FOR WRIT OF CERTIORARI ………...1
OPINIONS BELOW ............................................... 1
JURISDICTION ..................................................... 1
STATUTORY PROVISIONS INVOLVED ............. 2
STATEMENT OF THE CASE .............................. 13
REASONS FOR GRANTING THE WRIT ........... 25
CONCLUSION ..................................................... 28
INDEX OF APPENDICES
APPENDIX A
(November 18, 2019, Order Dismissing
28 U.S.C. § 2241)
APPENDIX B
(March 12, 2021, Opinion Affirming
District Court)
APPENDIX C
(March 12, 2021, Appellate Court
Judgment)

ii

TABLE OF AUTHORITIES
CASES
In re Davenport, 147 F.3d 605 (7th Cir. 1998).................. 26
In re Dorsainvil, 119 F.3d 245 (3d Cir. 1997) ................... 26
McCarthan v. Director of Goodwill Industries-Suncoast,
Inc., 851 F.3d 1076 (11th Cir. 2017) .............................. 27
Morales v. Bezy, 499 F.3d 668 (7th Cir. 2007) .................. 28
Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011)............. 27
Triestman v. United States, 124 F.3d 361 (2d Cir. 1997) . 26
United States v. McGuire, 45 F.3d 1177 (8th Cir. 1995) .. 14
STATUTES
18 U.S.C. § 1513(a) ............................................................ 13
18 U.S.C. § 371 .................................................................. 13
18 U.S.C. § 924(c) .............................................................. 13
28 U.S.C. § 2255(e) .................................................... passim

iii

PETITION FOR WRIT OF CERTIORARI
John Mandacina respectfully petitions this Court
for a writ of certiorari to review the United States
Court of Appeals for the Seventh Circuit's
judgment affirming the district court’s denial of
his 28 U.S.C. § 2241 petition.
OPINIONS BELOW
The Seventh Circuit's opinion and judgment
affirming the district court's denial is published at
Mandacina v. Entzel, 991 F.3d 758 (7th Cir. 2021),
and is included in the Appendix (“App.”) B at 24A.
The order in the district court is not published in
the Federal Supplement but is available at
Mandacina v. Kallis, 1:18-cv-1453 (C.D. Ill. Nov.
29, 2019) and in App. A.
JURISDICTION
The judgment of the court of appeals was entered
on March 12, 2021. The petitioner has 150 days to
file his petition for writ of certiorari which is until

August 9, 2021. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1), and Part III of
the Rules of the Supreme Court of the United
States.

This petition is timely pursuant to

Supreme Court Rule 13.1.
STATUTORY PROVISIONS INVOLVED
18 U.S.C. § 371. Conspiracy to commit
offense
or to defraud United States
If two or more persons conspire either to commit
any offense against the United States, or to
defraud the United States, or any agency thereof
in any manner or for any purpose, and one or more
of such persons do any act to effect the object of the
conspiracy, each shall be fined under this title or
imprisoned not more than five years, or both.
If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor
only, the punishment for such conspiracy shall not
exceed the maximum punishment provided for
such misdemeanor.
18 U.S.C. § 924. Penalties
(c) (1) (A) Except to the extent that a greater
minimum sentence is otherwise provided by this
subsection or by any other provision of law, any
person who, during and in relation to any crime of
violence or drug trafficking crime (including a
2

crime of violence or drug trafficking crime that
provides for an enhanced punishment if committed
by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in
a court of the United States, uses or carries a
firearm, or who, in furtherance of any such crime,
possesses a firearm, shall, in addition to the
punishment provided for such crime of violence or
drug trafficking crime—
(i) be sentenced to a term of imprisonment of not
less than 5 years;
(ii) if the firearm is brandished, be sentenced to a
term of imprisonment of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a
term of imprisonment of not less than 10 years.
(B) If the firearm possessed by a person convicted
of a violation of this subsection—
(i) is a short-barreled rifle, short-barreled shotgun,
or semiautomatic assault weapon, the person shall
be sentenced to a term of imprisonment of not less
than 10 years; or
(ii) is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm
muffler, the person shall be sentenced to a term of
imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that
occurs after a prior conviction under this
subsection has become final, the person shall—
(i) be sentenced to a term of imprisonment of not
less than 25 years; and
(ii) if the firearm involved is a machinegun or a
destructive device, or is equipped with a firearm
silencer or firearm muffler, be sentenced to
imprisonment for life.
(D) Notwithstanding any other provision of law—
(i) a court shall not place on probation any person
convicted of a violation of this subsection; and
3

(ii) no term of imprisonment imposed on a person
under this subsection shall run concurrently with
any other term of imprisonment imposed on the
person, including any term of imprisonment
imposed for the crime of violence or drug
trafficking crime during which the firearm was
used, carried, or possessed.
(2) For purposes of this subsection, the term “drug
trafficking crime” means any felony punishable
under the Controlled Substances Act (21 U.S.C.
801 et seq.), the Controlled Substances Import and
Export Act (21 U.S.C. 951 et seq.), or chapter 705
of title 46 [46 USCS §§ 70501 et seq.].
(3) For purposes of this subsection the term “crime
of violence” means an offense that is a felony and—
(A) has as an element the use, attempted use, or
threatened use of physical force against the person
or property of another, or
(B) that by its nature, involves a substantial risk
that physical force against the person or property
of another may be used in the course of committing
the offense.
(4) For purposes of this subsection, the term
“brandish” means, with respect to a firearm, to
display all or part of the firearm, or otherwise
make the presence of the firearm known to
another person, in order to intimidate that person,
regardless of whether the firearm is directly
visible to that person.
(5) Except to the extent that a greater minimum
sentence is otherwise provided under this
subsection, or by any other provision of law, any
person who, during and in relation to any crime of
violence or drug trafficking crime (including a
crime of violence or drug trafficking crime that
provides for an enhanced punishment if committed
by the use of a deadly or dangerous weapon or
4

device) for which the person may be prosecuted in
a court of the United States, uses or carries armor
piercing ammunition, or who, in furtherance of
any such crime, possesses armor piercing
ammunition, shall, in addition to the punishment
provided for such crime of violence or drug
trafficking crime or conviction under this section—
(A) be sentenced to a term of imprisonment of not
less than 15 years; and
(B) if death results from the use of such
ammunition—
(i) if the killing is murder (as defined in section
1111 [18 USCS § 1111]), be punished by death or
sentenced to a term of imprisonment for any term
of years or for life; and
(ii) if the killing is manslaughter (as defined in
section 1112 [18 USCS § 1112]), be punished as
provided in section 1112 [18 USCS § 1112].
18 U.S.C. § 1513. Retaliating against a
witness, victim, or an informant
(a) (1) Whoever kills or attempts to kill another
person with intent to retaliate against any person
for—
(A) the attendance of a witness or party at an
official proceeding, or any testimony given or any
record, document, or other object produced by a
witness in an official proceeding; or
(B) providing to a law enforcement officer any
information relating to the commission or possible
commission of a Federal offense or a violation of
conditions of probation, supervised release, parole,
or release pending judicial proceedings,
shall be punished as provided in paragraph (2).
(2) The punishment for an offense under this
subsection is—
5

(A) in the case of a killing, the punishment
provided in sections 1111 and 1112 [18 USCS §§
1111 and 1112]; and
(B) in the case of an attempt, imprisonment for not
more than 30 years.
(b) Whoever knowingly engages in any conduct
and thereby causes bodily injury to another person
or damages the tangible property of another
person, or threatens to do so, with intent to
retaliate against any person for—
(1) the attendance of a witness or party at an
official proceeding, or any testimony given or any
record, document, or other object produced by a
witness in an official proceeding; or
(2) any information relating to the commission or
possible commission of a Federal offense or a
violation of conditions of probation, supervised
release, parole, or release pending judicial
proceedings given by a person to a law
enforcement officer;
or attempts to do so, shall be fined under this title
or imprisoned not more than 20 years, or both.
(c) If the retaliation occurred because of
attendance at or testimony in a criminal case, the
maximum term of imprisonment which may be
imposed for the offense under this section shall be
the higher of that otherwise provided by law or the
maximum term that could have been imposed for
any offense charged in such case.
(d) There is extraterritorial Federal jurisdiction
over an offense under this section.
(e) Whoever knowingly, with the intent to
retaliate, takes any action harmful to any person,
including
interference
with
the
lawful
employment or livelihood of any person, for
providing to a law enforcement officer any truthful
information relating to the commission or possible
6

commission of any Federal offense, shall be fined
under this title or imprisoned not more than 10
years, or both.
(f) Whoever conspires to commit any offense under
this section shall be subject to the same penalties
as those prescribed for the offense the commission
of which was the object of the conspiracy.
(g) A prosecution under this section may be
brought in the district in which the official
proceeding (whether pending, about to be
instituted, or completed) was intended to be
affected, or in which the conduct constituting the
alleged offense occurred.
18 U.S.C. § 1958. Use of interstate commerce
facilities in the commission of murder-for-hire
(a) Whoever travels in or causes another (including
the intended victim) to travel in interstate or
foreign commerce, or uses or causes another
(including the intended victim) to use the mail or
any facility of interstate or foreign commerce, with
intent that a murder be committed in violation of
the laws of any State or the United States as
consideration for the receipt of, or as consideration
for a promise or agreement to pay, anything of
pecuniary value, or who conspires to do so, shall be
fined under this title or imprisoned for not more
than ten years, or both; and if personal injury
results, shall be fined under this title or
imprisoned for not more than twenty years, or
both; and if death results, shall be punished by
death or life imprisonment, or shall be fined not
more than $250,000, or both.
(b) As used in this section and section 1959 [18
USCS § 1959]—
(1) “anything of pecuniary value” means anything
of value in the form of money, a negotiable
instrument, a commercial interest, or anything
7

else the primary significance of which is economic
advantage;
(2) “facility of interstate or foreign commerce”
includes
means
of
transportation
and
communication; and
(3) “State” includes a State of the United States,
the District of Columbia, and any commonwealth,
territory, or possession of the United States.
28 U.S.C. § 2241. Power to grant writ
(a) Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district
courts and any circuit judge within their
respective jurisdictions. The order of a circuit
judge shall be entered in the records of the district
court of the district wherein the restraint
complained of is had.
(b) The Supreme Court, any justice thereof, and
any circuit judge may decline to entertain an
application for a writ of habeas corpus and may
transfer the application for hearing and
determination to the district court having
jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a
prisoner unless—
(1) He is in custody under or by color of the
authority of the United States or is committed for
trial before some court thereof; or
(2) He is in custody for an act done or omitted in
pursuance of an Act of Congress, or an order,
process, judgment or decree of a court or judge of
the United States; or
(3) He is in custody in violation of the Constitution
or laws or treaties of the United States; or
(4) He, being a citizen of a foreign state and
domiciled therein is in custody for an act done or
8

omitted under any alleged right, title, authority,
privilege, protection, or exemption claimed under
the commission, order or sanction of any foreign
state, or under color thereof, the validity and effect
of which depend upon the law of nations; or
(5) It is necessary to bring him into court to testify
or for trial.
(d) Where an application for a writ of habeas
corpus is made by a person in custody under the
judgment and sentence of a State court of a State
which contains two or more Federal judicial
districts, the application may be filed in the
district court for the district wherein such person
is in custody or in the district court for the district
within which the State court was held which
convicted and sentenced him and each of such
district courts shall have concurrent jurisdiction to
entertain the application. The district court for the
district wherein such an application is filed in the
exercise of its discretion and in furtherance of
justice may transfer the application to the other
district court for hearing and determination.
(e)
(1) No court, justice, or judge shall have
jurisdiction to hear or consider an application for a
writ of habeas corpus filed by or on behalf of an
alien detained by the United States who has been
determined by the United States to have been
properly detained as an enemy combatant or is
awaiting such determination.
(2) Except as provided in paragraphs (2) and (3) of
section 1005(e) of the Detainee Treatment Act of
2005 (10 U.S.C. 801 note), no court, justice, or
judge shall have jurisdiction to hear or consider
any other action against the United States or its
agents relating to any aspect of the detention,
transfer, treatment, trial, or conditions of
9

confinement of an alien who is or was detained by
the United States and has been determined by the
United States to have been properly detained as
an enemy combatant or is awaiting such
determination.
28 U.S.C. § § 2253. Appeal
(a) In a habeas corpus proceeding or a proceeding
under section 2255 [28 USCS § 2255] before a
district judge, the final order shall be subject to
review, on appeal, by the court of appeals for the
circuit in which the proceeding is held.
(b) There shall be no right of appeal from a final
order in a proceeding to test the validity of a
warrant to remove to another district or place for
commitment or trial a person charged with a
criminal offense against the United States, or to
test the validity of such person’s detention pending
removal proceedings.
(c)
(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be
taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding
in which the detention complained of arises out of
process issued by a State court; or
(B) the final order in a proceeding under section
2255 [28 USCS § 2255].
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under
paragraph (1) shall indicate which specific issue or
issues satisfy the showing required by paragraph
(2).
10

28 U.S.C. § 2255. Federal custody;
remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court
established by Act of Congress claiming the right
to be released upon the ground that the sentence
was imposed in violation of the Constitution or
laws of the United States, or that the court was
without jurisdiction to impose such sentence, or
that the sentence was in excess of the maximum
authorized by law, or is otherwise subject to
collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct
the sentence.
(b) Unless the motion and the files and records of
the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice
thereof to be served upon the United States
attorney, grant a prompt hearing thereon,
determine the issues and make findings of fact and
conclusions of law with respect thereto. If the court
finds that the judgment was rendered without
jurisdiction, or that the sentence imposed was not
authorized by law or otherwise open to collateral
attack, or that there has been such a denial or
infringement of the constitutional rights of the
prisoner as to render the judgment vulnerable to
collateral attack, the court shall vacate and set the
judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the
sentence as may appear appropriate.
(c) A court may entertain and determine such
motion without requiring the production of the
prisoner at the hearing.
(d) An appeal may be taken to the court of appeals
from the order entered on the motion as from the
11

final judgment on application for a writ of habeas
corpus.
(e) An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not
be entertained if it appears that the applicant has
failed to apply for relief, by motion, to the court
which sentenced him, or that such court has
denied him relief, unless it also appears that the
remedy by motion is inadequate or ineffective to
test the legality of his detention.
(f) A 1-year period of limitation shall apply to a
motion under this section. The limitation period
shall run from the latest of—
(1) the date on which the judgment of conviction
becomes final;
(2) the date on which the impediment to making a
motion created by governmental action in violation
of the Constitution or laws of the United States is
removed, if the movant was prevented from
making a motion by such governmental action;
(3) the date on which the right asserted was
initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme
Court and made retroactively applicable to cases
on collateral review; or
(4) the date on which the facts supporting the
claim or claims presented could have been
discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the
Controlled Substances Act [21 USCS § 848], in all
proceedings brought under this section, and any
subsequent proceedings on review, the court may
appoint counsel, except as provided by a rule
promulgated by the Supreme Court pursuant to
statutory authority. Appointment of counsel under
12

this section shall be governed by section 3006A of
title 18.
(h) A second or successive motion must be certified
as provided in section 2244 [28 USCS § 2244] by a
panel of the appropriate court of appeals to
contain—
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would
be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.
STATEMENT OF THE CASE
(a)

Mandacina's Original Proceedings
John A. Mandacina was charged in the

Western District of Missouri with “conspiring to
retaliate against an informant, 18 U.S.C. § 371
(1988), retaliating against an informant, 18 U.S.C.
§ 1513(a) (1988), using interstate commerce in the
commission of the retaliation, 18 U.S.C. § 1958
(1988 & Supp. V 1993), and using a firearm in the
commission of the two substantive offenses, 18
U.S.C. § 924(c) (1988 & Supp. V 1993). United
13

States v. McGuire, 45 F.3d 1177, 1180 (8th Cir.
1995). The charges relate to the murder of Larry
Strada (“Strada”), a cooperating witness. As
recounted by the Eighth Circuit in Mandacina’s
direct appeal:
Larry Strada provided information to the FBI
implicating Mandacina in bookmaking and other
criminal activity in the Kansas City area.
Mandacina later pled guilty to charges of
conspiracy to conduct an illegal gambling
business. On May 3, 1990, Mandacina was
sentenced to twelve months imprisonment.
At approximately 2:00 a.m. on May 16, 1990, Larry
Strada returned home from a bar he operated and
was killed in front of his home while taking out the
trash. He was shot six times in the head and twice
in the chest. The gunman did not take Strada's
jewelry, his wallet with approximately $200 in
cash, or a bank bag with the bar's nightly receipts.
The Kansas City Area Metro Squad investigated
Strada's murder for approximately one week
before turning it over to the FBI and law
enforcement authorities in Gladstone, Missouri.
No one found a weapon, a witness, or a lead.
In mid-December 1990, McGuire and his brotherin-law Terry Dodds were arrested while
committing a bank robbery in Milwaukee,
Wisconsin. Dodds pled guilty to bank robbery and
firearm charges, and received a sentence of seven
years, nine months. In early 1992, Dodds decided
14

to cooperate with the federal authorities. FBI
Agent Daniel Craft interviewed Dodds regarding a
number of bank robberies. During this interview,
Dodds implicated Thomas Earlywine as a
participant in the robberies. Dodds also stated
that he had overheard a conversation in which
Mandacina said that he wanted somebody killed
who had fingered him for a crime.
The FBI arrested and interviewed Earlywine
about the robberies and the contract killing in
Kansas City. Earlywine identified the victim of the
contract killing as Lonnie or Larry Strada or
Strocka. Earlywine told Agent Craft that, in May
of 1990, a hitman murdered Strada while Strada
was taking out his trash, and that Mandacina
ordered the hit for $25,000.
Earlywine testified at trial that, in November
1989, Earlywine and Dodds went to the Red Front
Restaurant and Lounge in the river market area
of Kansas City. Both Earlywine and Dodds
described a conversation in which Mandacina told
McGuire that he had been indicted on federal
gambling charges and that he thought that Strada
had already fingered him or was preparing to do
so. Mandacina then asked if McGuire would kill
Strada.
Earlywine stated that McGuire bragged
previously that he would do anything for
Mandacina or members of Kansas City organized
crime, including “heavy work,” i.e. murder.
McGuire told Earlywine that he wanted to
ingratiate himself with the people he believed to
be in “the outfit” or mafia in Kansas City.
15

Earlywine also testified that on another occasion,
Mandacina mentioned the gambling indictment,
but told McGuire and Earlywine that he did not
want to talk further at the Red Front. He
suggested that they go to his brother-in-law's
restaurant, “Chubby's.” Once there and while in
Earlywine's presence, Mandacina said that he
wanted Strada murdered and that he would pay
McGuire $25,000 to do it. Mandacina also asked
McGuire if he would murder Mandacina's son-inlaw. McGuire said that he would and that it would
be “gratis,” or free.
In June 1990, McGuire met Earlywine at a bar in
Rockford and told Earlywine that Strada had been
murdered. McGuire said that Strada was
murdered while taking out his trash and that he
had deserved it. Earlywine did not ask McGuire if
he killed Strada, because Earlywine believed that
McGuire would have told him directly if McGuire
wanted him to know.
In July 1990, Earlywine and McGuire came to
Kansas City. McGuire called Frank Angotti and
arranged to meet him for a drink at the Red Front.
In an attempt to get Angotti to join their crime
spree, McGuire told Angotti about the bank
robberies in which Earlywine, Dodds and McGuire
were involved and took him outside to show him a
bag full of guns and a bag full of money. They then
went back into the Red Front. Angotti testified to
the following exchange, which occurred after
Earlywine left the table:
I told Pat [McGuire], I said, “Pat, I have been
hearing rumors about you.” He said, “What kind of
16

rumors?” I said, “Well, I hear that you did Larry.
Did you do Larry?” He said yes.
At trial, Dodds and Earlywine testified regarding
numerous robberies involving both of them and
McGuire. They also testified regarding the
necessity of obtaining weapons for this purpose.
While drinking in Jennie's restaurant in
downtown Kansas City, Earlywine and Dodds
testified that McGuire asked the bartender where
he could buy more guns. The bartender introduced
McGuire to a woman at the bar, Brock
Decastrogiovannimausolf, whose boyfriend owned
a gun shop. The next day Brock introduced
McGuire to the gun shop's owner, Dennis Crouch.
At first Crouch refused to sell guns to McGuire,
and McGuire enlisted John Mandacina to give
assurances to Crouch for the sale, which was
ultimately concluded.
McGuire, 45 F.3d at 1181-82. As the district court
recognized, the prosecution also:
relied, in part, on the testimony of Agent Daniel
Craft to proof its case. Agent Craft was one of the
key FBI Agents who conducted the initial
interviews of Dobbs and Earlywine. According to
Mandacina’s brief, the prosecution, in his closing
argument at trial, told the jury that “[i]f you think
Earlywine is lying, if you want to believe that, then
you have to believe that Special Agent Craft fed
him all this stuff. . . .” Pet. at 10 (Doc. 1). The
prosecution also told the jury “[t]here is some
dispute, and I am not sure we will ever get to the
bottom of it, about whether Dodds gave Special
Agent Craft the name Larry Strada during that
17

first interview.” Id. Accordingly, Agent Craft’s
testimony and reliability was, at a minimum, at
issue at the trial.
(b) Agent Craft's Misconduct
The district court found that Mandacina did
not learn “until after his initial motion under 28
U.S.C. § 2255 was denied [that] Agent Craft had
engaged

in

previous

misconduct.”

That

misconduct, as recounted by the district court, was
quite serious:
In 1983, Agent Craft had “conspired to falsify the
results of a polygraph examination” that he had
administered. (R. 1688). As summarized in a letter
by FBI officials disciplining Craft:
The results of the tests in which [Craft] contrived
to circumvent established Bureau procedures
could have caused damage to this vital program.
[Craft’s] conduct in this matter undercut the
integrity of the polygraph process and cannot be
condoned. [Craft’s] attempt to cover up an
employee’s misrepresentations, if undetected,
would have usurped the authority and
responsibility of the Director to deal fairly and
impartially with matters of internal misconduct.
Pet. App. at R. 1689 (Doc. 1-7 at 89).
Additionally, Agent Craft mishandled memos
called “302” reports regarding eyewitness photo
18

identifications in a federal bank robbery case,
which lead to the wrongful convictions of Frank
Bolduc and Francis Larkin. See Bolduc v. United
States, 402 F.3d 50, 52 (1st Cir. 2005). In the 302
reports eyewitnesses had identified other
individuals as the perpetrators, but the 302
reports were not placed in the investigation file,
were not turned over to the U.S. Attorney’s Office,
and were not made available to the defendants. Id.
The memos later were discovered when the true
bank robbers confessed to the crimes. Mandacina
also points the Court to misconduct of Agent Craft
that occurred after Mandacina’s trial. See United
States v. Acosta, 111 F. Supp. 2d 1082, 1088 (E.D.
Wis. 2000) (recounting misconduct of Agent Craft
in Minnesota involving failure to heed a request
for counsel).
(c)

Mandacina's
Litigation
Mandacina

Pre-2241
was

sentenced

Habeas
to

life

imprisonment and his convictions were later
affirmed by the Eighth Circuit. McGuire, 45 F.3d
at 1190. Mandacina later moved for 28 U.S.C. §
2255 relief, but the district court denied the
motion. Mandacina v. United States, 2001 U.S.
Dist. LEXIS 10971 (W.D. Mo. July 25, 2001);

19

Mandacina v. United States, 328 F.3d 995 (8th Cir.
2003).
Mandacina appealed the denial of his § 2255
motion. After briefing in Mandacina’s appeal was
complete, Mandacina attempted to add the Giglio
claim that eventually formed the basis of his §
2241 petition in the district court. According to the
district court, the Eighth Circuit’s “opinion as a
whole does not mention his motion to supplement
the record or his Giglio claim, so it seems unlikely
that this language was meant to address his Giglio
claims. Instead, it appears that the Eighth Circuit
did not address the motion to supplement with the
Giglio claim at all.”
Mandacina next sought leave to file a second
or successive 28 U.S.C. § 2255 motion with the
Eighth Circuit. Mandacina argued that the
Government’s failure to turn over the Giglio
material concerning Agent Craft’s misconduct was
20

unlawful. The Government argued that the Giglio
material did not satisfy the requirements of 28
U.S.C. § 2255(h) because the evidence was not
“newly discovered” and was only impeaching. The
Eighth Circuit, without

explanation,

denied

Mandacina’s request for authorization to file a
second or successive § 2255 motion.
(d)

Mandacina Files For 28 U.S.C. § 2241
Relief
On

December

24,

2018,

Mandacina

petitioned for a writ of habeas corpus pursuant to
28 U.S.C. § 2241. Mandacina argued he was
entitled to § 2241 relief because the Government’s
Giglio violation wherein it failed to disclose Agent
Craft’s

misconduct.

Further,

Mandacina

contended he could proceed via § 2241 because
there was a “structural problem” with § 2255
which

precluded

an

original,

unobstructed

procedural shot at raising his Giglio claim. To the
21

extent § 2255(e) could not be construed as
authorizing his challenge, Mandacina argued that
§ 2255(e) violated the Suspension Clause and Due
Process Clause.
(e)

The District Court Dismissed
Mandacina’s Petition
On November 18, 2019, the district court

dismissed Mandacina’s § 2241 petition after
finding that his Giglio challenge did “not fall
within the savings clause.” App. at A. The district
court found that “Agent Craft’s testimony and
reliability was, at a minimum, at issue at the
trial.”

Nevertheless, without deciding whether

Mandacina had a meritorious Giglio claim, the
district court held that Mandacina’s challenge
could not proceed under the savings clause.
According to the district court, the Giglio claim
Mandacina raised fell “squarely within the type of

22

claims § 2255(h)(1) intended to limit.” As the
district court put it:
While § 2255(h)(1) does not allow any claims that
a person is constitutionally innocent of the type of
punishment, § 2255(h)(1) would allow a Giglio
claim that meet (sic) the heightened “clear and
convincing” standard. Mandacina argues no Giglio
claim could meet this heightened standard, but the
Court disagrees. There could be a case where laterdiscovered evidence showed that a material
prosecution witness was clearly lying—which if
the prosecution had little or no other evidence of
guilt could amount to “clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense.”
The district court also concluded that Congress
was aware of Giglio claims when it created §
2255(h) and therefore “later-discovered Giglio
claims are exactly the type of cases Congress
meant to restrict under § 2255(h)(1) when it
passed AEDPA.”
Similarly, the district court held that Mandacina
could not resort to the savings clause because his
Giglio claim was not one of actual innocence.

23

Finally,

the

district

court

held

that

Mandacina’s inability to resort to § 2241 did not
violate the Suspension Clause because Congress
“is free to limit the extent to which federal courts
can provide post-conviction collateral remedies.”
The district court did not address Mandacina’s
argument that restricting access to § 2241 under
these circumstances violates Due Process.
(f)

The Seventh
District Court

Circuit

Affirmed

the

On March 12, 2021, the Seventh Circuit
affirmed the district court's decision to deny the §
2241 petition. The Court found that Mandacina's
claim rested on Brady v. Maryland, 373 U.S. 83
(1963) instead of Giglio. The Court held that Brady
claims are made and decided under § 2255
routinely and there is nothing "inadequate or
ineffective" about § 2255 from that perspective.
The

Court

further

held
24

that

Mandacina's

contention

that

any

limit

on

§

2241

unconstitutionally suspends the writ of habeas
corpus conflicts with the decision holding that the
Suspension Clause does not entitle anyone to
successive

collateral

attacks

on

a

criminal

judgment.
REASONS FOR GRANTING THE WRIT
I. The Court Of Appeals Erred In Holding
That Mandacina’s Brady Claim Fell Outside
The Scope Of The “Savings Clause” Of 28
U.S.C. § 2255(e).
The Seventh Circuit’s decision exacerbates a
long-standing circuit split about what the proper
test for the “savings clause” of 28 U.S.C. § 2255(e)
is.
Prior to 1998, the Department of Justice took
the view that relief under the saving clause is
unavailable for statutory claims.

Following

rulings by courts of appeals that “decline[d] to
adopt the government’s restrictive reading of the
25

habeas preserving provision of § 2255,” Triestman
v. United States, 124 F.3d 361, 376 (2d Cir. 1997),
see In re Davenport, 147 F.3d 605, 608-612 (7th
Cir. 1998); In re Dorsainvil, 119 F.3d 245, 248-252
(3d Cir. 1997), the Department reconsidered its
views, taking the position, that an inmate can seek
relief for a statutory-based claim of error under §
2255(e). The Department has since reevaluated
that change in position and has determined, in
accord with McCarthan v. Director of Goodwill
Industries-Suncoast, Inc., 851 F.3d 1076, cert.
denied, 138 S. Ct. 502 (2017), and the Tenth
Circuit’s decision in Prost v. Anderson, 636 F.3d
578, 597 (2011) (Gorsuch, J.), cert. denied, 565 U.S.
1111 (2012) that its original interpretation of §
2255(e) was correct, and that a contrary reading
would be insufficiently faithful to the statute’s text
and to Congress’s evident purpose in limiting the
circumstances in which a criminal defendant may
26

file a second or successive petition for collateral
review.
The court of appeals’ approach to the savings
clause is particularly unsound as applied to the
circumstances of this case, which involves whether
the saving clause of 28 U.S.C. § 2255(e) permits a
Brady claim based on evidence that existed at the
time of trial, but was not discovered until after §
2255 relief became unavailable because of the
Government’s concealment.
Because the proper test for the savings
clause was directly raised in the district court and
on appeal, the instant case presents an excellent
vehicle for the Court to provide long-needed
guidance to lower courts about how to properly
apply the savings clause of § 2255(e).

27

II. Due Process Is Implicated If The
Statutory Savings Clause Cannot Be
Satisfied In This Case
The court of appeals rejected Petitioner’s
interpretation of the savings clause, and rejected
his right to present his Brady claim as a matter of
Due Process. The Seventh Circuit in the case of
Morales v. Bezy, 499 F.3d 668, 670 (7th Cir. 2007),
said “[t]hat is not to say that a decision by
Congress to eliminate all postconviction remedies
could not be challenged,” and that “the proper
route would be the due process clauses rather than
the suspension clause . . . .” Id. That “proper route”
was invoked in this case, and affords this Court an
alternative basis upon which to reverse the
judgment of the court of appeals.
CONCLUSION
The petition for a writ of certiorari should be
granted.

28

Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
1701 Pennsylvania Ave., N.W.
Suite 200
Washington, D.C. 20006
Phone: (802) 444-4357
Fax: (802) 779-9590
Vermont Bar No. 5573
Email: brandon@brandonsample.com
https://brandonsample.com
Counsel for Petitioner

29

